                                       ~~~~~~~~~~~~~~~~~~~I                                                   

                                                                              -
                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL .
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM·

.Case Number: AI0030016                                                                     Page 1 of 1



                 We reviewed an allegation of plagiarism involving 2 NSF proposals! submitted by the
         same PI? We determined that the PI's pattern of using material provided to him without
         attributing it to the source author required a warning. We sent the Subject a letter reminding him
         of his responsibility to adequately cite all material in his NSF proposals.

                   This case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
